*-

-6908

Supreme Court, U.S.
FILED

DEC 1 5 2020
OFFICE OF THE CLERK

In the
Supreme Court of the United States

Michael Ingram El,
Petitioner,
vs.
JOE CRAIL, et. al,.
Respondents
On Petition for Writ of Mandamus and Writ of Prohibition
to the United States
Court of Appeals for the Ninth District and
The United States District Court for The Eastern District of California

PETITION FOR WRIT OF MANDAMUS AND
WRIT OF PROHIBITION
Michael Ingram El,
Consul for the Moorish Nation/Moroccan Empire
Natural Person, In Propria Persona:
All Rights Reserved:
U.C.C. 1-207/ 1-308; U.C.C. 1-103
Moorish Khalifa Territory
[c/o P.O. Box 162367 near Sacramento,
California Republic Zip Exempt [95816]]
Northwest Amexem
(916) 598-1901

1

1
2

QUESTIONS PRESENTED
This Treaty of Peace and Friendship between the United States oi

3
4

America and his Imperial Majesty the Emperor of Morocco (Treaty of 1787/1836)

5

was originally written in the Arabic language and sealed with His Majesties’ Royal

6

Seal. It was later translated into the language of the said United States of America

7

with the Original denotative meanings of the times in which it was written. The

8
9

District Courts contention is that the Treaty of 1787/1836 is not self-executing, does

10

not grant Rights of Extraterritoriality and Consular Court jurisdiction. I do not

ll

possess a copy of the Treaty of 1787/1836 to provide the Court to interpret.

12

The Lower Courts contends that because Petitioner is allegedly a

13
14

citizen of the STATE OF CALIFORNIA, there is no diversity of citizenship

15

According to established law a citizen of the STATE OF CALIFORNIA, is also a

16

citizen of the “UNITED STATES” Corporation.

17

Although a formal declaration of Moor American Nationality was

18
19

placed in the record this contention and presumption persists.

20
21
22
23
24

The questions presented are:
1. Will the International Court of Justices Translation and Interpretation be
enough to Construe that the Treaty of 1787/1836 is “Self- Executing,”
granting “Rights of Extraterritoriality” to citizens of the United States and
Moors, and provide for “Consular Court Jurisdiction”?

25
26
27

2. Can the 14th Amendment be Construed as so to Violate the UNITED STATES
International Agreement, the Treaty of 1787/1836, by Presuming or
Compelling Moors to be 14th Amendment Citizens?

28
1

1
2

PROCEEDINGS OF FIRST JUDGEMENT
MICHAEL INGRAM EL, Petitioner

3
V.

4
5

JOE CRAIL; et al., Respondents

6
7

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

8
9

No. 19-16866

10

Date of entry of judgement: September 15, 2020

11

U.S. DISTRICT COURT FOR EASTERN CALIFORNIA, SACRAMENTO

12

D.C. No. 2-18-CV-01976 MCE EFB

13
14

Date of entry of judgement: September 11, 2019

15

Michael Ingram El

16

Petitioner

17
18
19

JOE CRAIL,

20

WESTERN MUTUAL INSURANCE,

21

RESIDENCE MUTUAL INSURANCE

22

Respondents

23
24
25
26
27
28
2

1
2

PROCEEDINGS OF SECOND JUDGEMENT
STATE OF CALIFORNIA et. al, Plaintiff-Appellee

3
4
5

V.

MICHAEL INGRAM EL, Defendant-Appellant

6
7

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

8
9

No. 20-15345

10

Date of entry of judgement: September 16, 2020
ll
12

U.S. DISTRICT COURT FOR EASTERN CALIFORNIA, SACRAMENTO

13

D.C. No. 2:19-cv-00560-KJM-DB

14

Date of entry of judgement: January 24, 2020
15
16

Michael Ingram El.

Defendant-Appellant

17

STATE OF CALIFORNIA

18

SUPERIOR COURT OF SACRAMENTO

19

COUNTY OF SACRAMENTO
20
21

CITY OF SACRAMENTO

22

SACRAMENTO COUNTY SHERIFFS’ DEPARTMENT

23

SACRAMENTO COUNTY DISTRICT ATTORNEYS’ OFFICE

24

Sheriff Scott Jones
25
26

Presiding Judge David De Alba

27

Magistrate Jennifer Rockwell

28
3

1
2

District Attorney Marie Schubert
Deputy O’Connor.

Plain tiff-Appellee

3
4

TABLE OF CONTENTS
Page

5
6

QUESTIONS PRESENTED

1

7

FIRST JUDGEMENT PROCEEDINGS

2

SECOND JUDGEMENT PROCEEDINGS

3

TABLE OF CONTENTS

4

APPEN. CONTENTS

5

12

TABLE OF AUTHORITIES

IV

13

PETITION MANDAMUS & PROHIBITION

6

14

PETTION FOR WRIT OF PROHIBITION

6

16

FIRST JUDGEMENT OPINIONS
BELOW..........................................

6

17

SECOND JUDGEMENTOPINIONS BELOW,

8
9
10
11

15

18

>7 777

6

SECOND JUDGEMENTJUDGEMENTJURISDICTION

6

FIRST JUDGEMENT JURISDICTION

7

CONSTITUTIONAL, TREATY AND
STATUTORY PROVISIONS AT ISSUE

7

FIRST JUDGEMENT STATEMENT OF THE CASE

9

AID APPELLATE JURISDICTION,

11

REASONS FOR
GRANTING THE PETITIONS

13

CONTENTIONS -TREATY,

14

19
20
21
22
23
24
25
26
27
28
4

I

TABLE OF CONTENTS CONT.
Page

2
3

CONTENTIONS 14™ AMEND

25

5

RELEIF SOUGHT

29

6

NO RELIEF FROM OTHER COURT

31

CONCLUSIONS

32

4

7
8
9

APPENDIX

10
li

Page

12
13

Memorandum Court of Appeals

A1

14

Order of the District Court

B1

Magistrates Findings and Recommendations

Cl

Treaty of Peace

D1

18

France v. United State of America (ICJ)

El

19

Memorandum Court of Appeals

A1

Order of the District Court

B1

Magistrates Findings and Recommendations

Cl

15
16
17

20
21
22
23
24
25
26
27
28

5

CITATATION
Afroyim v. Rusk, 387 U.S. 253 (1967). P. 28
Asakura v. City of Seattle, 265 U.S. 332 (1924) U. S. 342. P. 25
Chapalain Compagnie v. Standard Oil Co. (1978) P. 24
Cook v. United States, 288 U.S. 102, 120 (1933). P. 28
Dred Scott v. Sandford 60 U.S. 393 (1857). P. 29
Foster v. Neilson, 27 U.S. 253, 314 (1829). P. 24
Honduras 372 U.S. 21-22. P. 28
Jordan v. Tashiro, 278 U.S. 123 (1928) U. S. 127. P. 25
Khan v. Holder, 584 f. 3d 773 P. 28
McCulloch v. Sociedad Nacional de Marineras
Mellon, 262 U.S. 447, 488 (1923). P.24
Montana-Dakota Utils. Co v. Northwestern Pub Serv. Co (1951) 341 US 246, 95 L
Ed 912, 71 s Ct 692. P. 25
Murray v. Schooner Charming Betsy 6 U.S. (2 Cranch) 64, 118 (1804). P. 28
Osburn v. Bank if the United States, 9 Wheat. 738, 22 U.S. 827 28
P. 279 U.S. 52. Nielsen v. Johnson, 279 U.S. 47 (1929) P. 25
P. 311 U. S. 163. Bacardi Corp. v. Domenech, 311 U.S. 150 (1940) P. 25
Talbot v. Seeman, 5 U.S. (lCranch) 1, 43 (1801) P. 28
The Mayor v. De Armas, 9 Peters 244, 233 (U.S. 1835) P. 24

I

The United States Osborn v. Bank, 9 Wheat. 738 (U.S. 1824). P. 24
Third Restatement of foreign relations Law: p. 28
Transworld airlines, Inc. v. Franklin Mint Corp, 466 U.S. 243 (1984). P. 28
United States v. Rauscher, 119 U.S. 407 (1886). P. 25
Keesee v. Bank of Am., NA (2005, Md Fla) 371 F Supp 2d 1370, 18 Flw Fed D 586).
P.24
2 Moore, Int.L.Dig.i U.S. v. Lucus, D.C.Wash., 6 F.2d 327, 328, P. 17
Downes v. Bidwell, 182 U.S. 244 (1901). P. 18
Dreyfus v. Von fink (1978, CA 2 NY) 534 F2d 24, 34 ALR Fed 377, Cert (1976) 429
US 835, 50 Led 2d 101, 975 Ct 102. P. 16
Foster & Elam v. Neilson, 27 U.S. 253 (1829). P. 16
Kennett v. Chambers, 14 How. 38. 45, 50 (U.S. 1852).
Kennett v. Chambers, 14 How. 38. 45, 50 (U.S. 1852).

P. 18
P. 17

Murray v. Schooner Charming Betsy 6 U.S. (2 Cranch) 64, 118 (1804). P. 11
Osborn v. Bank, 9 Wheat. 738 (U.S. 1824). P. 12
Owings v. Norwood’s Lessee (1809) 9 US 344, 5 Cranch 344, 3L Ed 120 P. 11
The Mayor v. De Armas, 9 Peters 224, 233 (U.S. 1835) P. 12
The Mayor v. De Armas, 9 Peters 224, 233 (U.S. 1835). P. 12
United States v. Percheman, 32 U.S. 89 (1832) P. 14

Wilcox v. Jackson 38 U.S. 498, 510, 10 L.Ed.264, 270, 1839 U.S. P. 12
Wilcox v. Jackson 38 U.S. 498, 510, 10 L.Ed.264, 270, 1839 U.S. P. 12

INTERNATIONAL LAWS
Universal Declaration
of Human Rights. December 10, 1948
Article 20 -2. No one may be compelled
to belong to an association. P. 27
Article 15
Everyone has the right to a nationality.
No one shall be arbitrarily deprived of his nationality nor denied the right to
change his nationality. P. 28
Vienna Convention Part III
Article 26 - Pacta Sunt Servanda Every Treaty in
force is binding upon the parties to it and must
be performed by them in good faith. P. 32
Article 27- Internal Law and observance of Treaties
A party may not invoke the provisions of its internal
law as justification for its failure to perform a treaty. P. 32
Declaration of The Rights of The Child International Law - 1959:
Principle 3: “The child shall be entitled from his birth
to a name and a nationality”. P. 32
Universal Declaration of Human Rights Of 1948 General Assembly: International Law: Article 15:
(1) Everyone has the right to a nationality.
(2) No one shall be arbitrarily deprived of his nationality
nor denied the right to change his nationality. P. 32

Un Declaration on The Rights of Indigenous People
Article 5- Every Indigenous Individual Has the Right to A Nationality. P. 32
Vienna Convention
Part III
Article 26* Pacta Sunt Servanda Every
Treaty in force is binding upon the parties
to it and it must be performed by them in good faith.
Article 27* Internal Law and observance of Treaties. P 31
France v. United States of America 1952 August 27th general list: No. ll(App
El-17). P. 16
France v. United States of America 1952 August 27th general list: No. 11 (App
El-16). P. 15
Article 24
Treaty of 1787/1836. P.22
P. 21
“Sundry Free Moors Act”
State Records of South Carolina. Journals
of the House of Representatives, 1789*90. P. 21.
United Nations Economic Council GE. 96*13447 (E)
Report of the working group on Indigenous population on its Fourteenth
session Geneva, 29 July* August 1996 Chairperson * Rapporteur: Ms. Erica
Irene A. Daes
Washitaw de Dugdah Moundyah New Iyet Oldest Indigenous people on
earth. Http//www.cwis.org/fwdp/international/reportl4.text. P. 20
the Ghent treaty states: Article 9

P 19

Jay Treaty of 1795 states: Article 3
Law ofNations. P.29

IV

DISTRICT COURT NINTH CIRCUIT
CITATIONS OF MEOMORANDUM JOE CRAIL
No. 19-16866

Safe Air for Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004)
Kanter v. Warner- Lambert Co., 265 F.3d 853, 857-58 (9th Cir. 2001)
See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009

CITATIONS FROM FIRST JUDGE MENT JOE CRAIL
No. 2:18-cv-1976-MCE-EFB PS

Kokkonen v. Guardian Life Ins. Co., 511 U.S. 375, 377 (1994).

Baker v. Carr, 369 U.S. 186, 198 (1962).
Bautista v. Pan American World Airlines, Inc., 828 F.2d 546, 552 (9th Cir. 1987).
O Kokkonen, 511 U.S. at 376-78.
Attorneys Trust v. Videotape Computer Products, Inc., 93 F.3d 593, 594-95 (9th Cir. 1996).
Sopcak v. Northern Mountain Helicopter Serv., 52 F.3d 817, 818 (9th Cir. 1995);
Thornhill Pub. Co. v. General Tel. & Electronics Corp., 594 F.2d 730, 733 (9th Cir. 1979).
Different standards
United States, 966 F. Supp. 970, 971-72 (E.D. Cal. 1997). “A Rule 12(b)(1)
Safe Air For Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004).
Doe v. Schachter, 804 F. Supp. 53, 56 (N.D. Cal. 1992). 3
Thornhill, 594 F.2d at 733. Although the court may
McCarthy v. United States, 850 F.2d 558, 560 (9th Cir. 1988),
Trentacosta v. Frontier Pacific Aircraft Industries, Inc.,
813 F.2d 1553,1558 (9th Cir. 1987)
Bautista v. Pan American World Airlines, Inc., 828 F.2d 546, 552 (9th Cir. 1987).
Kantor v. Wellesley Galleries, Ltd., 704 F.2d 1088,1090 (9th Cir. 1983). A corporation is a
citizen of any
Bey v. Municipal Court, Nos. 11- 7343 (RBK), 11-4351 (RBK), 2012 WL 714575 (D.N.J. Mar.
5,2012

Bey v. White, No. 2:17-cv-76-RMG-MGB, 2017 WL 934728, at *3 (D.S.C. Feb. 14, 2017)
Jones v. Tozzi, 1:05CV01480WW DLB, 2005 WL 1490292, at *6 n.5 (E.D. Cal. June 21, 2005)
Khattab El v. US. Justice Dep 7, No. 86-6863,1988 WL 5117, at 5 (E.D. Pa. Jan. 22,1988)
Baker v. Carr, 369 U.S. 186,198 (1962). The presence or absence of federal
Caterpillar, Inc. v. Williams, 482 U.S. 386, 392 (1987).
e Noll v. Carlson, 809 F.2d 1446,1448 (9th Cir. 1987)

CITATIONS FROM SECOND JUDGEMENT
CASE # No. 2:19-cv-0560 KJM DB PS

Morongo Band of Mission Indians v. Cal. State Bd. of Equalization, 858 F.2d 1376,1380 (9th
Cir. 1988).
Kokkonen v. Guardian Life Ins. Co., 511 U.S. 375, 377 (1994); Willy v. Coastal Corp., 503
U.S. 131,136-37 (1992). “Federal courts are presumed to lack jurisdiction, ‘unless the contrary
Casey v. Lewis, 4 F.3d 1516, 1519 (9th Cir. 1993) (quoting Bender v. Williamsport Area Sch.
Dist., 475 U.S. 534, 546 (1986)).
Attorneys Trust v. Videotape Computer Prods., Inc., 93 F.3d 593, 594-95 (9th Cir.
1996).
Dittman v. California, 191 F.3d 1020,1025 (9th Cir. 1999). It is the
Grupo Dataflux v. Atlas Global Group, L.P., 541 U.S. 567, 593 (2004). Without jurisdiction, the
district court
Morongo, 858 F.2d at 1380.
ARCO Envtl. Remediation, LLC v. Dep’t of Health & Envtl. Quality, 213 F.3d 1108,1113 (9th
Cir. 2000).
Lew v. Moss, 797 F.2d 747, 749 (9th Cir. 1986). “
In re Digimarc Corp. Derivative Litigation, 549 F.3d 1223, 1234 (9th Cir. 2008).
Libhart v. Santa Monica Dairy Co., 592 F.2d 1062, 1064 (9th Cir. 1979) (citing Shamrock Oil &
Gas Corp. v. Sheets, 313 U.S. 100,108 (1941)); see also Syngenta
Crop Prot., Inc. v. Henson, 537 U.S. 28, 32 (2002); Provincial Gov’t of Martinduque v. Placer
Dome, Inc., 582 F.3d 1083, 1087 (9th Cir. 2009). “Federal jurisdiction must be rejected if there
Gaus v. Miles, Inc., 980 F.2d 564, 566 (9th Cir. 1992).
Harris v. Provident Life & Accident Ins. Co., 26 F.3d 930, 932 (9th Cir. 1994)

(quoting Gould v. Mut. Life Ins. Co., 790 F.2d 769, 771 (9th Cir. 1986)); see also
ProvincialGov’t of Martinduque, 582 F.3d at 1087.
ReadyLink Healthcare, Inc. v. State Compensation Ins. Fund, 754 F.3d 754, 759 (9th Cir. 2014)
Rynearson v. Ferguson, 903 F.3d 920, 924-25 (9th Cir. 2018) (quoting ReadyLink, 754 F.3d at
759)).

CITATIONS US DISTRICT COURT OF APPEALS NOTICE OF REMOVAL
No. 20-15345

Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).

1
2

PETITION FOR

3
4
5
6
7

WRIT OF MANDAMUS
PETITION FOR WRIT OF PROHIBITION
Michael Ingram, El Consul for The Moorish Nation/Moroccan Empire, respectfully
petitions for a writ of Mandamus and writ of Prohibition to review the judgments of

8

the United States Court of Appeals for the Ninth Circuit and the United States
9
10

District Court for the Eastern District of California and enjoin them to enforce

11

Substantive law, Substantive Rights, The Supremacy clause and Treaty of

12

1787/1836. And enjoin the Lower Courts and State Court, et alia, from Exceeding

13
14

their Jurisdictions in matters concerning Moors.

15
16
17

FIRST JUDGMENT OPINIONS BELOW
The panel opinion of the Court of Appeals is unpublished, and included in

18

Petitioner’s Appendix Pet. App. at Al. The order of the district court granting the
19
20

motion to dismiss is published, and is included in Pet. App. at Bl.

21

SECOND JUDGEMENT OPINIONS BELOW

22

The panel opinion of the Court of Appeals is unpublished, and included in

23
24
25

Petitioner’s Appendix Pet. App. at A2. The order of the district court granting the
motion to dismiss is published, and is included in Pet. App. at B2.

26
27

SECOND JUDGEMENT JURISDICTION

28
6

1
2

On January 24, 2020 the district court dismissed case without
providing a summons nor affording any due process law what so ever (ECF).

3
4

Petitioner, Michael Ingram El, filed a timely appeal to the 9th. Circuit Court of

5

Appeals, affirmed lower Court dismissal on September 16, 2020. There is no order

6

respecting rehearing. I would like to have this second set of judgements reviewed

7

simultaneously with the first set judgements for these cases involve identical

8
9

questions?

10
ll
12

FIRST JUDGEMENT JURISDICTION
On September 11, 2019 the district court granted the Defendants’

13
14
15
16
17

motion to dismiss. Plaintiff, Michael Ingram El, filed a timely appeal to the 9th.
Circuit Court of Appeals, which affirmed dismissal on September 15, 2020.
This Court has jurisdiction under Constitution for the United State of
America Art. Ill Section 2 cl 1&2, and 28 U.S.C. § 1651(a) and 28 U.S.C. §1251.

18
19

28 U.S.C.§ 2403(a) may apply and shall be served on the Solicitor

20

General of the United States, Room 5616, Department of Justice, 950 Pennsylvania

21

Ave., N.W., Washington, DC 20530 0001. No court to my knowledge has, pursuant

22

to 28U.S.C. § 2403(a), certified to the Attorney General the fact that the

23
24

constitutionality of an act of congress was drawn into question.

25

26
27

28

CONSTITUTIONAL, TREATY AND
STATUTORY PROVISIONS AT ISSUE
“
The Supremacy Clause of the Constitution for the United States of America
Art. VI, cl. 2, provides^
7

1
2
3
4
5

This Constitution and the Laws of the United States which shall be made in
pursuance thereof and all treaties made, of which shall be made, under the
Authority of the United States, shall be the supreme Law of the land; and the
judges in every State shall be bound thereby, anything in the Constitution or
Laws of any State to the contrary notwithstanding.
The Treaty of Peace and Friendship between the United States of America,
and His Imperial Majesty the Emperor of Morocco 1786/1787.

6

10

Article 20 provides:
"If any of the Citizens of the United States, or any Persons under their
Protection, shall have any disputes with each other, the Consul shall decide
between the Parties, and whenever the Consul shall require any Aid or
Assistance from our Government, to enforce his decisions, it shall be
immediately granted to him."

11

Article 21 provides:

7
8
9

12

15

"If any Citizen of the United States should kill or wound a Moor, or, on the
contrary, if a Moor shall kill or wound a Citizen of the United States, the Law
of the Country shall take place, and equal Justice shall be rendered, the
Consul assisting at the Trial; and if any Delinquent shall make his escape,
the Consul shall not be answerable for him in any manner whatever."

16

Article 24 provides-

13
14

17
18
19
20
21
22

If any differences shall arise by either party infringing on any of the articles
of this treaty, peace and harmony shall remain notwithstanding, in the
fullest force, until a friendly application shall be made for an arrangement,
and until that application shall be rejected, no appeal shall be made to arms.
And if a war shall break out between the parties, nine months shall be
granted to all the subjects of both parties, to dispose of their effects and retire
with their property. And it is further declared, that whatever indulgences, in
trade or otherwise, shall be granted to any of the Christian Powers, the
citizen of the United States shall be equally entitled to them

23
24
25
26
27
28

Constitution for the United State of America Art. Ill Section 2 cl 1&2
provides^
The judicial Power shall extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United States, and Treaties made, or
which shall be made, under their Authority.'- to all Cases affecting
Ambassadors, other public ministers and Consuls! "to all Cases of admiralty
and maritime Jurisdiction!"to Controversies to which the United States shall
8

1
2
3
4
5
6
7

be a Party;"to Controversies between two or more States;"between a State
and Citizens of another State;"between Citizens of different States,'"between
Citizens of the same State claiming Lands under Grants of different States,
and between a State, or the Citizens thereof, and foreign States, Citizens or
Subjects.
In all Cases affecting Ambassadors, other public Ministers and Consuls, and
those in which a State shall be Party, the supreme Court shall have original
Jurisdiction. In all the other Cases before mentioned, the supreme Court
shall have appellate Jurisdiction, both as to Law and Fact, with such
Exceptions, and under such Regulations as the Congress shall make.

8
9
10
11
12
13

14th Amendment US ConstitutionAll persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein
they reside. No State shall make or enforce any law which shall abridge the
privilege or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of law,' nor
deny to any person within its jurisdiction the equal protection of the laws.

14
15

FIRST JUDGEMENT INTRODUCTION AND
16
17
18
19

STATEMENT OF THE CASE
I Michael Ingram El Filed an Amended Action for Trespass on the
Case in Assumpsit on November 19, 2018 seeking remedy for the trespass of my

20

rights under an insurance contract. I filed the action in district court invoking my
21
22

Treaty Right to have the action heard in Consular Court. Defense filed a motion to

23

dismiss on the grounds of lack of subject matter jurisdiction.

24
25

The District Court dismissed the Amended Complaint on September 10, 2019.
26
27

The District Court dismissed the Notice of Removal on January 24, 2020.

28

Although there was no “dispute” to any of the following facts:
9

1
2
3
4

• no dispute that the treaty of peace and friendship between the United States
of America, and his imperial Majesty the Emperor of Morocco, Ancient
Moroccans is “in force.”

5
6

• no “dispute” that Michael Ingram El is a “Moor American” National, Minister
and Consul of the Moroccan Empire,

7
8
9

• no “dispute” that the land/soil at North, South, Central America and the
adjoining Islands is “Morocco”

10
11
12

• no dispute that the “Moors” are the People of the land (“WE THE PEOPLE”
of the preamble of the Constitution for the United States of America),
“aboriginal, indigenous, Free inhabitants and the rightful title holders of this
land”

13
14
15
16

• no dispute that the seed of Abraham Moabites trust’ exist, holds an allodial
Title to the land in question and said trust was created years prior to filing
this action,

17
18
19
20
21

• no dispute that the seed of Abraham Moabites Trust is a
State/Regency/Mission/Bonnaville located at coordinates 38 degrees 30
minutes 23.79 seconds North, 121 degrees 25 minutes 55.62 seconds west at
Moorish Khalifa territory Northwest Amexem/Northwest Africa/North
America within the dominion of the Moroccan Empire, Foreign to the
“UNITED STATES” Corporation and Michael Ingram El is “Head of State.”

22
23

• no dispute that the Sovereign Moorish Nation/Moroccan Empire is a
Theocratic Republic.

24
25
26

The District court found that Petitioners claim is not predicated on any
treaty and there is no Diversity of Citizenship because of the court contention that

27

Petitioner is a citizen of the State of California.
28
10

1
2

The Court of Appeals affirmed. It ruled that plaintiff failed to allege

3
4
5
6
7

plausibly that his action arose under a treaty of the United States or Diversity of
citizenship.
“Case arising from or growing out of a treaty was one involving rights given
or protected by treaty.” Owings v. Norwood’s Lessee (1809) 9 US 344, 5
Cranch 344, 3L Ed 120

8
9
10

A private right of action allows a private party to seek remedy from a
court for the violation of a private right provided by a treaty.

11
12
13

“An Act of Congress ought never be construed to violate the law of Nations if
any other possible construction remains...” Murray v. Schooner Charming
Betsy 6 U.S. (2 Cranch) 64, 118 (1804).

14
15

HOW WILL THE WRITS AID

16

IN THE COURT’S APPELLATE JURISDICTION

17

The Writs will aid in the Courts appellate Jurisdiction because in this

18
19

case the Writ involves the Treaty of 1787/1836. This treaty has a Jurisdiction

20

Clause establishing Consular Courts between United States Citizens and Moors

21

The Supreme Court have Original Jurisdiction is cases affecting Consular Courts.

22
23
24

The Treaty of 1787/1836 protects “Rights of extraterritoriality” all of
which are without State Courts, District Courts and Appellate Courts Authority

25

and Jurisdiction.
26
27
28

In addition to the fact that the Lower Courts have interpreted
important questions concerning the Treaty of 1787/1836 using modern English
11

1
2

connotative meanings of today, the lower courts have Interpreted important
questions concerning Moors and the 14th Amendment that have not been, but

3
4
5
6
7

should be Interpreted by this court.
This is an exceptional circumstance that require this courts’
interpretation of the Treaty of 1787/1836. Also, to answer very serious questions
that, for the first time, have been brought here for decision before this court. The

8
9

lower courts are in need of this courts discretionary power and guidance on these

10

matters of great concern. The lower courts do not have the Authority and

11

jurisdiction to hear cases affecting Consuls as that jurisdiction is conferred only to

12

the Supreme court under Article III Section 2 clause 2. Consular Court jurisdiction

13
14

grants the rights of extraterritoriality in the proper forum for my Action. Relief in

15

any other form or by any other court is a violation of International Law and Human

16

rights. This petition is brought here by a Moor American National and Consul of the

17

perpetual Moroccan Empire, who in both capacities have a right to bring it, and it is

18
19
20
21
22
23
24

the Supreme Courts duty to meet it, decide it and enforce it.
"Where a court has jurisdiction, it has a right to decide every question which
occurs
in the cause; and whether its decision be correct or otherwise, its judgement,
until reversed is regarded as binding in every other court but if it act without
authority,
its judgements and orders are regarded as nullities. They are not voidable,
but simply void".Wilcox v. Jackson 38 U.S. 498, 510, 10 L.Ed.264, 270, 1839
U.S.

25
26
27

“the third article of the Constitution, enables the judicial department to
receive jurisdiction to the full extent of the Constitution, laws and treaties of
the United States.” Osborn v. Bank, 9 Wheat. 738 (U.S. 1824).
The jurisdiction conferred upon the supreme Court extends to rights

28
12

1
2

protected by the Constitution, treaties or laws of the United States from
whatever source derived. The Mayor v. De Armas, 9 Peters 224, 233 (U.S.
1835)

3
4

REASONS FOR GRANTING THE PETITION

5
6
7

The petition needs to be granted to restore substantial Rights that

8
9

were removed. The exercise of rights afforded by the treaty of 1787/1836 were

10

turned into a crime. Moors have become victims of the Magna Charta customs, that

li

which is termed Christian law, rules of action recorded on paper and supported by

12

authority.

13
14

The subversion of the exclusive afforded Authority granted to Consular

15

Courts must be restored immediately. The information presented in the

16

jurisdictional clause of the treaty clearly describe the right of extraterritoriality

17

between the Moors and the United States of America

18
19

This Treaty of Peace and Friendship between the United States of

20

America and his Imperial Majesty the Emperor of Morocco, was originally written

21

in the Arabic language and sealed with His Majesties’ Royal Seal. It was later

22

translated into the language of the said United States of America with the Original

23
24

denotative meanings of the times in which it was written. According to customary

25

International law and general canons of treaty interpretation, the treaty must be

26

interpreted in the Original language it was written in. The District Courts

27

contention is that Petitioners action is not predicated on any treaty. Meaning, the

28
13

1
2

Treaty of 1787/1836 is not self-executing, that it does not grant Rights of
Extraterritoriality nor Consular Court jurisdiction. I do not possess a copy of the

3
4

Treaty of 1787/1836 in Arabic to provide the Court to interpret.

5

The International Court of Justices translation and interpretation
6
7

should be enough to prove that the Treaty of 1787/1836 is “Self- Executing,” grants

8

“Rights of Extraterritoriality” and Consular Court Jurisdiction even when the

9

United States has agreed with the said Courts Translation and Interpretation?

10

n
12

The lower Courts are in need of your Interpretation, Guidance and
judgement under these exceptional circumstances.

13
14

“In the case of Foster v. Neilson, 2 Pet. 253, this Court considered

15

these words as importing contract. The Spanish part of the treaty was not then
16
17

brought to our view, and we then supposed that there was no variance between

18

them. We did not suppose that there was even a formal difference of expression in

19

the same instrument drawn up in the language of each party. Had this

20

circumstance been known, we believe it would have produced the construction
21
22

which we now give to the article.” United States v. Percheman, 32 U.S. 89 (1832)

23
24

CONTENTIONS IN SUPPORT OF PETITION

25
26
27

TRESPASS ON THE CASE IN ASSUMPTSIT IS PREDICATED ON
TREATY OF 1787/1836

28

14

1
2

• Will the International Court of Justices Translation and Interpretation be
enough to Interpret that the Treaty of 1787/1836 is “Self- Executing,”

3
4

granting “Rights of Extraterritoriality” and “Consular Court Jurisdiction”

5

even when the United States has agreed with the said Courts Translation

6

and Interpretation?

7
8
9
10
ll
12
13
14
15
16
17

“first point raised by the submissions relates to the scope of the
“jurisdictional clauses” of the treaty of 1836, which reads as follow:
“Article 20 States “If any of the Citizens of the United States, or any Persons
under their Protection, shall have any disputes with each other, the Consul
shall decide between the Parties, and whenever the Consul shall require any
Aid or Assistance from our Government, to enforce his decisions, it shall be
immediately granted to him."
Article 21 "If any Citizen of the United States should kill or wound a Moor,
or, on the contrary, if a Moor shall kill or wound a Citizen of the United
States, the Law of the Country shall take place, and equal Justice shall be
rendered, the Consul assisting at the Trial)' and if any Delinquent shall make
his escape, the Consul shall not be answerable for him in any manner
whatever."” France v. United States of America 1952 August 27th general list:
No. 11 (App El-16)
The ICJ clearly describe Article 20 and 21 as the jurisdiction Clauses

18
19

that imports a “private right of action” whenever there is a dispute between

20

any of the United States Citizen or Persons (Moors) under their protection.

21

Also, the Clause Explains what law will be used for punishment of crimes

22

between Moors and United States Citizens.

23
24

Article 20 Can only be construed to mean If any of the Citizens of the

25

United States, or any persons under their protection, shall have any of their
26
27

rights Trespassed on “Shall” have the issue settled in the Consular Court

28

using their nations law a.) This clearly prescribes the rule by which private
15

l
2

rights may be determined, b.) Cases affecting Consular Court enforcement
are federal jurisdiction per Article III section 2 of the Constitution for the

3
4

United States of America Republic, c.) and it only addresses itself to the

5

judiciary. A self - executing Treaty is a treaty that creates a domestic legal

6

obligation in the absence of implementing legislation, has automatic domestic

7

effect, a federal law upon Ratification.

8
9
10

n
12
13
14
15
16
17

“In the United States, a different principle is established. Our Constitution
declares a treaty to be the law of the land. It is consequently to be regarded in
courts of justice an equivalent to an act of the legislature whenever it
operates of itself, without the aid of any legislative provision. But when
either of the parties engage to perform a particular act the treaty addresses
itself to the political, not the judicial, department, and the legislative must
execute the contract before it can become a rule for the Court.” Foster & Elam
v. Neilson, 27 U.S. 253 (1829).
“Federal Jurisdiction under 28 USCS§1331 over private claim based on
general treaty exist only when treaty is self-executing, when it prescribes
rules by which private rights may be determined, and when treaty provides
for federal Jurisdiction” Dreyfus v. Von fink (1978, CA 2 NY) 534 F2d 24, 34
ALR Fed 377, Cert (1976) 429 US 835, 50 Led 2d 101, 975 Ct 102.

18
19
20
21
22
23
24

• “Accordingly, it is necessary to construe the word dispute as used in
article 20, as referring both to civil disputes and to criminal disputes, in so
far as they relate to breaches of the criminal law committed by a United
States citizen or protege upon another United States citizen or protege.”
France v. United States of America 1952 August 27th general list: No.
ll(App El-17)
Petitioner, acting in his official capacity, brought this common law
action in the court of record because of breach on the terms of a contract, as

25

result of this breach of rights under contract, petitioner was injured.
26
27

Petitioner filed this "Action of Trespass on the Case" for remedy in Consular

28

Venue. According to afore mentioned definitions, an "Action of Trespass on
16

1
2

the Case" is a form of action which lies to recover damages for the injuries
and clearly falls within the definition of “Dispute.”

3
4
5
6
7

•

Extraterritoriality - The term is used to indicate jurisdiction exercised by
a nation in other countries, by treaty, as, by the United States in China or
Egypt; or by its own ministers or consuls in foreign lands. Crime is said to
be Extraterritorial when committed in a country other than that of the
forum in which the party is tried. See 2 Moore, Int.L.Dig.; U.S. v. Lucus,
D.C.Wash., 6 F.2d 327, 328,

8
9
10
11
12

Treaties made under the authority of the United States bind the nation and
bind the individual citizen Kennett v. Chambers, 14 How. 38. 45, 50 (U.S.
1852)

13
14

The international court of justice has clearly defined the jurisdictional

15

Clauses in the Treaty of 1787/1837, and also how the law shall be applied in
16
17

civil and criminal disputes. For petitioner to have his action heard in

18

Consular Court is a “Private Right of Action” and a “Right of

19

Extraterritoriality.”

20
21
22

• The word citizen in the phrase
“If any of the “citizens” of the United States (United States of America)
Of Article 20 must be construed to mean the following:

23
24
25
26
27

By 1868 there were at least three types of citizens, US Citizen “United States
Citizens” and thel4‘h Amendment “UNITED STATES CITIZEN.”
The third kind of corporate citizenship came into play with the
publication of the new corporate Constitution of the United State of America

28
17

1

incorporated. Congress then began wearing two hats, one as The United

2

States of America Republic and the other as the United States Corporation.

3

Regardless, of which capacity they act, United States and its citizens are still

4
5

bound by the Constitution for the United States of America Republic and the

6

Treaties.

7

“It was insisted that Congress could act in a double capacity! in one as
legislating for states! in the other as a local legislature for the District of
Columbia...The mere cession of the District of Columbia to the federal
government relinquished the authority of the states, but it did not take it out
of the “United States” or from under the aegis of the Constitution.” Downes v.
Bidwell, 182 U.S. 244 (1901).

8
9
10
11

Treaties made under the authority of the United States bind the nation and
bind the individual citizen Kennett v. Chambers, 14 How. 38. 45, 50 (U.S.
1852)

12
13
14

• The phrase “persons under their (United States) protection”
In Article 20

15
16

Shall be construed to include the Free Moors.

17

To define who the party spoken of as Protege inside the United States

18
19

Political Zones at Morocco, we must consider the fact that Moors have lasting

20

treaties of trade and navigation with Great Briton.

21

Moors acquire protection inside the Occupying United States Political

22
23
24

I

Zones at Morocco by way of the various treaties the Moors have with Great
Briton. The United States, being a subsidiary of Great Briton, are obligated.

25
26

For example, the Jay Treaty of 1795 states-

27

“Article 3

28

“also to the Indians (Moors) dwelling on either side of the said boundary line
18

1
2
3
4

freely to pass and repass by land, or inland navigation, into the respective
territories and countries of the two parties on the continent of America.” (the
Country within the Limits of the Hudson's Bay Company only excepted) and
to navigate all the Lakes, Rivers, and waters thereof, and freely to carry on
trade and commerce with each other.”

5

For example, the Ghent treaty states:
6
7
8
9

Article 9
“at the time of such Ratification, and forthwith to restore to such Tribes or
Nations respectively all the possessions, rights, and privileges, which they
may have enjoyed or been entitled to”

10

The Moors may invoke these Treaties at any time for the protection of
11
12

their preexisting Rights. Consular Court is the proper venue. The Protege

13

spoken of in article 20 must be construed to include “Free Moors,” the people

14

of the land since time immemorial the Indigenous Sovereign people of the A1

15

Morocs (Americas), who inhabited the Northwestern and Southwestern
16
17

shores of Africa (A1 Morocs). These are the descendants of the Ancient

18

Moabites, the possessors of the Noble Titles of Ali, El, Bey, A1 and Dey, The

19

Moors.

20
21

United States Founding father Benjamin Franklin wrote an essay as to

22

how these A1 Moroccans (Americans) looked. This is listed on United States

23

Government page.

24

Observations Concerning the Increase of Mankind

25
26
27
28

By Benjamin Franklin (1751)
24. Which leads me to add one Remark: That the Number of purely white
People in the World is proportionably very small. All Africa is black or tawny.
Asia chiefly tawny. America (exclusive of the new Comers) wholly so. And in
19

I
2
3
4
5
6
7
8
9

Europe, the Spaniards, Italians, French, Russians and Swedes, are generally
of what we call a swarthy Complexion; as are the Germans also, the Saxons
only excepted, who with the English, make the principal Body of White
People on the Face of the Earth. I could wish their Numbers were increased.
And while we are, as I may call it, Scouring our Planet, by clearing America
of Woods, and so making this Side of our Globe reflect a brighter Light to the
Eyes of Inhabitants in Mars or Venus, why should we in the Sight of Superior
Beings, darken its People? why increase the Sons of Africa, by Planting them
in America, where we have so fair an Opportunity, by excluding all Blacks
and Tawneys, of increasing the lovely White and Red? But perhaps I am
partial to the Complexion of my Country, for such Kind of Partiality is
natural to Mankind.
https 7/founders, archives. gov/documents/Franklin/01-04-020080#BNFN-0104-02-0080-fn-0001-ptr

10
11
12

United Nations listed the “Washitaw Moors” as the oldest Indigenous
people on earth.

13
14

United Nations Economic Council GE. 96-13447 (E)

15

Report of the working group on Indigenous population on its Fourteenth

16

session Geneva, 29 July- August 1996 Chairperson - Rapporteur: Ms. Erica

17

Irene A. Daes

18
19

Washitaw de Dugdah Moundyah New Iyet Oldest Indigenous people on
earth. Http//www.cwis.org/fwdp/international/reportl4.text

20
21
22

Moors are, the people of the land, on the land, from the land, not under
the Jurisdiction United States. Moors are not citizens of the United States,

23
24
25

yet protected by treaties the United States are bound by.
This is reaffirmed by the

26
27
28
20

1
2

“Sundry Free Moors Act”
State Records of South Carolina. Journals of the House of Representatives, 1

3
4

5
6
7
8

9
10

789-90.
Mr. Edwd". Rutledge reported from the Committee to whom was referred the
petition of the Free Moors, which he read in his place and afterwards
delivered it in at the Clerks Table where it was again read for information.
Ordered That it be taken into immediate Consideration which being read
through was agreed to and is as follows Viz. Report That they have
Considered the same and are of opinion that no Law of this State can in its
Construction or Operation apply to them, and that persons who were
Subjects of the Emperor of Morocco being Free in this State are not triable by
the Law for the better Ordering and Governing of Negroes and other Slaves.
Resolved That this House do agree with the Report.

11
12

Ali, El, Bey, A1 and Dey are the only Titles of Nobility on this land.

13
14

These Moorish Titles of Honor and Nobility are the one referred to in the

15

‘Original’ 13th Amendment of the Constitution for the United States of

16

America Republic. If any of the contracted Citizens (English males) claim any

17

title of Honor or Nobility will be in violation of law and lose their citizenship.

18
19

The honorable Charles Mosley Bey Registered the Moorish Credentials

20

21
22

which reveal at law, the conditions of Intercourse between the Indigenous
Moors and the Occupational European Nations, with whom the Moors have

23
24

Treaties and Illustrates Moorish Americans inherited birth rights as the

25

Nobles of the land. AA222141/Library of Congress, Washington, DC (ECF 24

26

p.4).

27
28

21

1
2

Whenever Moors interact with the United States, or its Citizens it is
supposed to be a negotiation, transaction, or superintendence of the

3
4

diplomatic business of one nation at the court of another. If there is ever a

5

dispute civil or criminal, Moorish law for Moorish defendants and United

6

States Law for United States defendants.

7
8

1956 President Eisenhower signed a Memorandum

9
10

relinquishing Jurisdiction of the United States in Morocco. §§ 141 to 143

li

Repealed. Aug. 1, 1956, Ch 807, 70 Stat.774

12

The Treaty of 1787/1836 is still in force. All disputes involving

13
14

Moors and the United States Citizens are decided under Moorish law,

15

Consular Court Jurisdiction.

16

• Article 24

17

18
19
20

21
22
23

“If any differences shall arise by either party infringing on any of the articles
of this treaty, peace and harmony shall remain notwithstanding, in the
fullest force, until a friendly application shall be made for an arrangement,
and until that application shall be rejected, no appeal shall be made to arms.
And if a war shall break out between the parties, nine months shall be
granted to all the subjects of both parties, to dispose of their effects and retire
with their property. And it is further declared, that whatever indulgences, in
trade or otherwise, shall be granted to any of the Christian Powers, the
citizen of the United States shall be equally entitled to them”
Treaty of 1787/1836

24
25

26

Article 24 must be construed to mean:
If a party to the treaty feels that any of their treaty rights are not carried out

27

or carried out in good faith, there is a State or Nations right of action in
28
22

1
2

domestic courts. If said right of action is rejected or agreement is not made,
war is the most likely result.

3
4

5
6
7

The Jurisdictional clause of the Treaty of 1787/1836 clearly mentions
the Moors yet the lower Courts have Interpreted that the Petitioners “Action
is not predicated on any treaty” when it is. half of the jurisdictional clause

8
9

describe how disputes will be handled and half describes how specific crimes

10

will be punished. The fact that half of the jurisdictional clause specifically

li

mention Moors, can only be construed to mean that the entire Treaty of

12

1787/1836 pertains to Moors.

13
14

The International Court of Justices Translation and Interpretation is

15

enough to Interpret that the Treaty of 1787/1836 is “Self- Executing,”

16

granting “Rights of Extraterritoriality” and “Consular Court Jurisdiction.”

17

The United States has agreed with the Courts Translation and

18
19

Interpretation?

20

The Treaty of 1787/1836 must be construed as being a self-executing
21
22

treaty, providing Consular Court Jurisdiction for all disputes between

23

Citizens of the United States and Moors. There are no terms in the treaty

24

stipulations that import a contract, when either of the parties engage to

25

perform a particular act. Also, the ICJ has defined the jurisdictional clause.
26
27

Michael Ingram Els’ action is predicated on the Treaty of 1787/1836, and

28
23

1
2

must be Interpreted as such. For the reasons described, the Writ of
Mandamus and Writ of Prohibition must be granted.

3
4

“In the United States a private right is one that a private citizen can
vindicate in court” Mellon, 262 U.S. 447, 488 (1923)

5
6
7

The third article of the Constitution” as Marshall declared, “enables the
judicial department to receive jurisdiction to the full extent of the
Constitution, laws and treaties of the United States Osborn v. Bank, 9
Wheat. 738 (U.S. 1824)

8
9
10
li
12
13
14

The Jurisdiction conferred upon the Supreme court extends to rights
protected by the constitution, treaties or laws of the United States from
whatever source derived.” The Mayor v. De Armas, 9 Peters 244, 233 (U.S.
1835)
“When the terms of the [treaty] stipulation import a contract, when either of
the parties engage to perform a particular act, the treaty addresses itself to
the political, not the judicial department; and the legislature must execute
the contract before it can become a rule for the court.” Foster v. Neilson, 27
U.S. 253, 314 (1829).

15
16
17
18
19
20
21
22
23
24
25
26
27
28

if construction or interpretation of treaty will determine plaintiffs success,
federal question jurisdiction under 28 USCS 1331 exist, but if treaty concerns
collateral or secondary issues rather than essential allegation of complaint or
existence of right of action, federal question does not exist.” Chapalain
Compagnie v. Standard Oil Co. (1978)
Federal Courts’ power and sphere of action in federal-question cases is to say
what law is and in applying it to a particular situation, necessarily expound
and interpret that law,' Constitution provides this power, (U.S. const. Art.
III§2), /Congress has vested this power through original jurisdiction in
District Court and Appellate Jurisdiction in Circuit Courts (28 USCS §1331
and USCS § 1291), and constitution further requires that U.S. supreme /court
have this power as appellate Court U.S. Const. Art. Ill § 2; in this regard,
federal decisional - or Common- law along with Constitution laws and
treaties of U.S. provide supreme rules of decision in federal question cases,
Keesee v. Bank of Am., NA (2005, Md Fla) 371 F Supp 2d 1370, 18 Flw Fed D
586)
In order to invoke Federal question jurisdiction Plaintiffs claims must arise
under constitution, laws or treaties of United States; Federal question
jurisdiction may be properly invoked only if plaintiffs complaint necessarily
24

1
2
3
4

draws into question interpretation of application of federal law Gray v.
Internal affairs Bureau (2003, SDNY) 292 F Supp 2d 475. If complaint raises
federal question, fact that such question has no merit does not, even where it
is patently frivolous affect federal jurisdiction to so determine. MontanaDakota Utils. Co v. Northwestern Pub Serv. Co (1951) 341 US 246, 95 L Ed
912, 71 s Ct 692.

5
6
7
8
9
10
11
12
13
14

Obligations of treaties should be liberally construed to effect the apparent
intention of the parties to secure equality and reciprocity between them.
Where a treaty admits of two constructions, one restricting the rights that
may be claimed under it and the other enlarging them, the more liberal
construction is to be preferred. Jordan v. Tashiro, 278 U.S. 123 (1928) U. S.
127.
A treaty is to be liberally construed) when two constructions are possible, one
restrictive of rights that may be claimed under it and the other favorable to
them, the latter is to be preferred. Asakura v. City of Seattle, 265 U.S. 332
(1924) U. S. 342.
The treaty should be construed liberally to give effect to its purpose. Where a
provision fairly admits of two constructions, one restricting, the other
enlarging, rights claimed under it, the more liberal construction is to be
preferred. P. 311 U. S. 163.
Bacardi Corp. v. Domenech, 311 U.S. 150 (1940)

15
16
17
18
19
20

When a treaty provision fairly admits of two constructions, one restricting,
the other enlarging, the rights which may be claimed under it, the more
liberal interpretation is to be preferred. P. 279 U.S. 52.
Nielsen v. Johnson, 279 U.S. 47 (1929)
That a treaty to which the United States is a party is a law of the land, of
which all courts, state and national, are to take judicial notice and by the
provisions of which they are to be governed, so far as they are capable of
judicial enforcement.
United States v. Rauscher, 119 U.S. 407 (1886)

21
22
23
24

CONTENTIONS IN SUPPORT OF PETITION

25

MOORS CANNOT BE PRESUMED OR COMPELLED TO BE 14™
‘ 26
27

AMENDMENT CITIZENS

28
25

]

2

The Lower Courts contends that Petitioner is a citizen of the STATE

3
4

OF CALIFORNIA, and there is no diversity of citizenship. According to established

5

law a citizen of the STATE OF CALIFORNIA, is also a citizen of the “UNITED

6

STATES” Corporation.

7

Although a formal declaration of Moor American Nationality was

8
9

placed in the record this contention and presumption persists.

10
ii
12

The question is:
Can the 14th Amendment be Construed as so to Violate the United

13
14
15

States International Agreement, the Treaty of 1787/1836, by Presuming or
Compelling Moors to be 14th Amendment Citizens?

16
17

Interpretive enforcement- which can only occur where there is a U.S.

18

treaty commitment to enforce. This requires a directly relevant treaty duty

19

approved by the political branches it further requires no contrary constitutional text

20

or other clear evidence that the relevant constitutional provisions are best read to
21
22

permit or require a violation of the United States International legal obligations

23

under the relevant ratified treaty.

24
25
26

• The only way a Moor can be a Citizen of the United States is through
naturalization

27
28

• There is no historical documented Evidence that Moors were ever naturalized
26

1
2
3
4

Article 15
Everyone has the right to a nationality.
No one shall be arbitrarily deprived of his nationality nor denied the right to
change his nationality.

5
6
7
8
9
10

The Charming Betsy canon
An Act of Congress ought never to be construed to violate the law of nations if
any other possible construction remains...” Murray v. Schooner Charming
Betsy 6 U.S. (2 Cranch) 64, 118 (1804).
The laws of the United States ought not, if it be avoidable, so to be construed
as to infract the common principles and usages of nations, or the general
doctrines of national law.” Talbot v. Seeman, 5 U.S. (lCranch) 1, 43 (1801)

11
12
13
14
15
16
17
18
19

Third Restatement of foreign relations Law: “Where Fairly possible, a United
States Statute is to be construed so as not to conflict with International law
or with an international agreement of the United States.”
“there is, first a firm and obviously sound canon of construction against
finding implicit repeal of a treaty in ambiguous congressional action.” The
court concluded that “legislative silence is not sufficient to abrogate a treaty.”
Transworld airlines, Inc. v. Franklin Mint Corp, 466 U.S. 243 (1984).
“for us to sanctions the exercise of local sovereignty... in this delicate field of
International relations there must be present the affirmative intention of the
congress clearly expressed.”
McCulloch v. Sociedad Nacional de Marineras Honduras 372 U.S. 21-22

20
21
22
23
24

“a treaty will not be deemed to have been abrogated or modified by a later
statute unless such purpose on part of congress has been clearly expressed”
Cook v. United States, 288 U.S. 102, 120 (1933).
“Under Charming Betsy, we should interpret the INA in such a way as to
avoid any conflict with the protocol, if possible” Khan v. Holder, 584 f. 3d 773

25
26
27
28

“Congress has no express power under the Constitution to strip a person of
citizenship and no such power can be sustained as an implied attribute of
sovereignty as was recognized by congress before the passage of the
fourteenth Amendment, and a mature and well considered dictum in Osburn
v. Bank if the United States, 9 Wheat. 738, 22 U.S. 827, is to the same effect.”
28

s

1
2
3
4

Congress has no authority to bring Moors under the authority and
Jurisdiction of the United States pursuant to the Constitution for the United
States of America.

5
6
7

There is no Moorish treaty that delegates authority to the United States
Congress to write in legislation bringing the Moors into the United States
Jurisdiction.

8
9
10

There were no Wazirs (officials) of the Moorish nation representing the freed
Moors during the drafting of the emancipation proclamation, 13th, 14th, 15th
Amendments! therefore, there is no proper, lawful treating of the matter.

ii
12
13
14

There is no affirmative intention of the political branches of the United
States, clearly expressed to supersede, abrogate, modify or violate The Treaty
of 1787/1836,

15
16

The 14th amendment is being construed so as to conflict with United

17

States International Agreements, The Treaty of 1787/1836, and Human Rights
18
19
20
21

treaties.
Because of the afore mentioned facts petitioner is not and cannot be a
citizen of STATE OF CALIFORNIA, UNITED STATES. There is Diversity of

22

Citizenship and Consular Court Jurisdiction must be enforced!
23
24
25

Universal Declaration of Human Rights. December 10, 1948

26
27
28

Article 20
2. No one may be compelled to belong to an association
27

l
2
3
4
5

Afroyim v. Rusk, 387 U.S. 253 (1967)
“...and the difficulty which meets us at the threshold of this part of the
inquiry is, whether congress was authorized to pass this law under any
powers granted to it by the constitution; for if the authority is not given by
that instrument, it is the duty of this court to declare it void and inoperative.”
Dred Scott v. Sandford 60 U.S. 393 (1857).

6
7
8
9

“It is, Therefore, on account of its origin, called the Natural and, by reason of
its obligatory force, the Necessary law of Nations. That law is common to all
nations; and if anyone of them does not respect it in her actions, she violates
the common Rights of all the others” Law ofNations

10
11

RELIEF SOUGHT

12
13
14
15
16

Michael Ingram El a Moorish American National and Consul of the Living and
perpetual Moorish Nation/ Moroccan Empire, moves this honorable court to: By
Court ORDER, to Enjoin the following persons or parties:

17
18
19

United States of America Republic all its agents, agencies,
departments and instrumentalities

20
21
22
23
24

UNITED STATES FEDERAL CORPORATION, its agents, agencies,
departments and instrumentalities
STATE OF CALIFORNIA
SUPERIOR COURT OF SACRAMENTO

25
26

COUNTY OF SACRAMENTO

27

CITY OF SACRAMENTO

28

SACRAMENTO COUNTY SHERIFFS’ DEPARTMENT
29

»

V

.*

1
2

SACRAMENTO COUNTY DISTRICT ATTORNEYS’ OFFICE
UNITED STATES DISTRICT COURT EASTERN DISTRICT OF

3
4

CALIFORNIA

5

Sheriff Scott Jones

6

Presiding Judge David De Alba

7

Magistrate Jennifer Rockwell

8
9
10

District Attorney Marie Schubert
Deputy O’Connor

11
12

TO

13
14

Honor, Respect and Enforce the Constitution for the United States of
America Republic and the Supremacy Clause.

15
16
17

Honor, Respect, and Enforce the TREATY OF PEACE AND FRIENDSHIP
Between the United States of America, and His Imperial Majesty the
Emperor of Morocco

18
19
20
21

Prohibit it, and them from Assuming or Exercising Jurisdiction over matters
Concerning Michael Ingram El, Moor American Nationals, and Moorish
Subjects.

22

Recognize and enforce the Moorish Right of Extraterritoriality
23
24

Enforce Consular Court Jurisdiction and Consular decision

25
26
27
28
30

**

1
2

WHY RELIEF SOUGHT IS NOT AVAILABLE FROM ANY OTHER

3

COURT

4
5
6
7

Petitioner, Michael Ingram has attempted maybe a dozen times to find
remedy in all the lower courts but have failed. They have never honored the

8
9

Constitution for the United States of America Republic or the Supremacy Clause.

10

They have never honored, respected, or enforced the TREATY OF PEACE AND

11

FRIENDSHIP Between the United States of America, and His Imperial Majesty the

12

Emperor of Morocco. They continue to Assume or Exercise Jurisdiction over matters

13
14

Concerning, Moor American Nationals, and Moorish Subjects, including myself.

15

They do not recognize nor enforce the Moorish right of Extraterritoriality, Consular

16

Court jurisdiction or Consular decision.

17

Therefor I am Appealing to the highest court in the land for the

18
19

Restoration of Substantive Rights, Substantive Law, enforcement of the United

20

States International agreements, enforcement of Customary International law and

21

Human rights!

22
23
24

Vienna Convention

27

Part III
Article 26- Pacta Sunt Servanda Every
Treaty in force is binding upon the parties
to it and it must be performed by them in good faith.

28

Article 27* Internal Law and observance of Treaties

25
26

31

*.

1
2
3
4
5
6
7

A party may not invoke the provisions of its internal
law as justification for its failure to perform a treaty.
Vienna Convention Part III
Article 26 - Pacta Sunt Servanda Every Treaty in
force is binding upon the parties to it and must
be performed by them in good faith
Article 27- Internal Law and observance of Treaties
A party may not invoke the provisions of its internal
law as justification for its failure to perform a treaty.

8

9
10
ll
12
13
14

Declaration of The Rights of The Child International Law - 1959:
Principle 3: “The child shall be entitled from his birth
to a name and a nationality”
Universal Declaration of Human Rights Of 1948 —
General Assembly: International Law: Article 15:
(1) Everyone has the right to a nationality.
(2) No one shall be arbitrarily deprived of his nationality
nor denied the right to change his nationality.

15
16
17

Un Declaration on The Rights of Indigenous People
Article 5,
Every Indigenous Individual Has the Right to A Nationality.

18

CONCLUSION

19

Say a prayer for the Moors, and let my people Go!

20
21
22

December 14, 2020.

23
24

I Am;

25

Michael Ingram El, Consul for the Moroccan Empire All rights reserved - U.C.C. 1-308,
26
27

A free Moorish America, In Full Life, In Solo Proprio, In Propria Persona Sui Juris.

28
32

